CERTIFICATE OF SERVICE
No. 19Joslyn Manufacturing Co., LLC and Joslyn Corp.,
Petitioners,
v.
Valbruna Slater Steel Corp. and Fort Wayne Steel Corp.,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this twenty-first day of
January, 2020, I caused three copies and an electronic copy of the Petition for a
Writ of Certiorari in the foregoing case to be served by first-class mail, postage
prepaid, and by email, on the following:
DAVID L. HATCHETT
Hatchett & Hauck LLP
150 W. Market Street
Suite 200
Indianapolis, IN 46204
david.hatchett@h2lawyers.com
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

